March 31, 2000


M. RICHARD PORRAS
CHIEF FINANCIAL OFFICER
AND EXECUTIVE VICE PRESIDENT

DEBORAH K. WILLHITE
SENIOR VICE PRESIDENT, GOVERNMENT RELATIONS
AND PUBLIC POLICY

SUBJECT:	 Review of the Breast Cancer Research Stamp Program
          (Report Number RG-AR-00-002)

This report presents the results of our review of the Breast Cancer Research Stamp
Program (Project Number 99RA012RG000). This report is our second review on the
implementation of the Stamp Out Breast Cancer Act. We previously issued a
management advisory report, Stamp Out Breast Cancer Act and Stamp, dated
September 30, 1998.

The audit revealed that the Postal Service received national recognition for its efforts in
raising funds for Breast Cancer research. As of September 1999, the Postal Service
sold approximately $47 million in Breast Cancer Research Stamps and raised about
$8.6 million for research at the Department of Defense and the National Institutes of
Health. We recommended that Postal Service management recover costs consistent
with their interpretation of the act--about $841,000--for incremental program costs
incurred through fiscal year 1999, and any additional expenses that are incurred above
that which would normally be incurred for a commemorative stamp. Furthermore, we
recommended that Postal Service management issue guidance as to whom costs and
supporting documentation are to be reported or provide the finance number to all offices
incurring costs for the Breast Cancer Research Program; and develop an improved
system for reasonably estimating the number of semi-postal stamps required for future
semi-postal stamp programs. Postal Service management generally agreed with the
intent of our recommendations. However, management’s proposed actions to
implement the recommendations are only partially responsive. Management’s
comments and our evaluation of their comments are included in the report.
We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact {b6} or me at
(703) 248-2300.



Sylvia L. Owens
Assistant Inspector General
 For Revenue Cost Containment

Attachment

cc:	 Mary Ann Gibbons
     James C. Tolbert
     John R. Gunnels




                                           2
Breast Cancer Research Stamp                                RG-AR-00-002
 Program Review


                               TABLE OF CONTENTS
Part I


Executive Summary
                                             i


Part II


Introduction                                                   1

   Background                                                  1

   Objective, Scope, and Methodology                           2


Audit Results                                                  3



   Recognition, Awareness, and Funding                         3

   Recoverable Cost                                            4

          Recommendations                                      8

          Management’s Comments                                8

          Evaluation of Management’s Comments                  8


   Cost Tracking                                              10

          Recommendations                                     11

          Management’s Comments                               12

          Evaluation of Management’s Comments                 12


   Stamp Purchases                                            14

          Recommendations                                     15

          Management’s Comments                               15

          Evaluation of Management’s Comments                 16


   Follow-up of Prior OIG Review                              17



Appendix. Management’s Comments                               19





                                   Restricted Information
Breast Cancer Research Stamp                                                       RG-AR-00-002
 Program Review


                                  EXECUTIVE SUMMARY
Introduction	                  The Stamp Out Breast Cancer Act required that the Postal
                               Service establish a semi-postal Breast Cancer Research
                               Stamp to be available to the public for a two-year period, to
                               raise funds for breast cancer research. This is our second
                               report on the Postal Service’s process to implement the act.
                               The first report, Stamp Out Breast Cancer Act and Stamp,
                               was issued on September 30, 1998.

Results in Brief	              In response to the act, the Postal Service established a
                               semi-postal Breast Cancer Research Stamp Program to
                               raise funds for breast cancer research. As part of the
                               program, the Postal Service participated in and funded
                               special events and national advertising campaigns using
                               radio, television, and magazines. As a result, the Postal
                               Service received national recognition for its efforts and, as
                               of September 1999 sold approximately $47 million in Breast
                               Cancer Research Stamps.

                               About $38 million of this revenue covered the First-Class
                               postage rate of 33 cents per stamp and about $8.6 million
                               was differential revenue above the First-Class postage rate.
                               Postal Service management recovered $205,000 in
                               incremental costs and paid the remaining $8.6 million in
                               differential revenue to the Department of Defense and the
                               National Institutes of Health for breast cancer research.
                               Consistent with their interpretation of the act, the Postal
                               Service management needed to recover approximately an
                               additional $841,000 in incremental costs incurred as of
                               September 1999, and has until November 2000 to recover
                               these costs.

                               In addition, to facilitate tracking of program costs, Postal
                               Service management provided their field offices a list of the
                               offices required to track costs. However, management did
                               not provide the field with the finance number for the
                               program or direction on where to report costs. Additional
                               guidance in these areas may have provided greater
                               assurance that all program expenses were identified and
                               reported to Congress, as required by the act.




                                                   i
                                        Restricted Information
Breast Cancer Research Stamp                                                        RG-AR-00-002
 Program Review



                               Furthermore, the Postal Service spent more than $940,000
                               to print an additional 131.7 million Breast Cancer Research
                               Stamps that, based on past sales data, may not have been
                               needed.

Summary of                     Based on this audit, we recommend that the chief financial
Recommendations                officer and executive vice president: (1) recover costs
                               consistent with the Postal Service’s interpretation of the act-
                               -about $841,000 as of September 1999 and (2) issue
                               guidance on where to report costs and supporting
                               documentation or provide the finance number to all offices
                               incurring costs for the Breast Cancer Research Stamp
                               program.

                               Also, in the event that there are future semi-postal stamp
                               programs, we recommend that the vice president of
                               Government Relations develop an improved system for
                               reasonably estimating the number of stamps required to be
                               printed for such programs.

Summary of                     Management’s comments reflected partial agreement on
Management’s                   two recommendations and disagreement on the third.
Comments                       Management agreed with recovering costs consistent with
                               their interpretation of the Stamp Out Breast Cancer Act and
                               intends to recover a total of $482,007 in incremental costs.
                               They also plan to issue final regulations on recoverable
                               costs and publish them in their Administrative Support
                               Manual by the end of the stamp’s sales period, July 2000.

                               Management’s comments support the intent of our second
                               recommendation to issue guidance for tracking and
                               reporting program costs. However, management disagreed
                               with the third recommendation, asserting that the current
                               inventory system supports their effort to ensure stamps
                               were readily available in all sales locations.

                               In addition, the Postal Service provided clarifying
                               information regarding the cost tracking of “Shipping/Other
                               Packaging, Stamp Design, and Prompt Payment Fees.”
                               Furthermore, the Postal Service commented that we had
                               misstated the amount of the revenue paid to other
                               government agencies for breast cancer research. They
                               stated that they had only paid $5.9 million of $8.6 million in
                               revenue raised as of September 1999.



                                                   ii
                                        Restricted Information
Breast Cancer Research Stamp                                                       RG-AR-00-002
 Program Review


Evaluation of                  Management’s comments are partially responsive to our
Management’s                   recommendations. However, we maintain that costs
Comments                       deemed incremental to those normally associated with
                               commemorative stamps should be recovered and all costs
                               directly related to the Breast Cancer Research Stamp
                               should be included in total program costs.

                               In addition, we maintain that the process used for
                               determining stamp inventory required for this program
                               needed improvement and, as a result, excess stamps were
                               ordered.

                               We have made changes in this final report to address the
                               Postal Service’s comments regarding cost tracking. We
                               have also revised the report to state that the Postal Service
                               raised $8.6 million as of September 1999 for research.




                                                  iii
                                        Restricted Information
Breast Cancer Research Stamp                                                                   RG-AR-00-002
 Program Review


                                                INTRODUCTION
Background	                          On August 13, 1997, the President of the United States
                                     signed into law the Stamp Out Breast Cancer Act. The
                                     unprecedented act mandated that the United States Postal
                                     Service establish a special rate of postage for First-Class
                                     Mail for a semi-postal stamp to raise awareness and funds
                                     for breast cancer research. The act required that the rate
                                     for the Breast Cancer Research Stamp be equal to the First-
                                     Class postage rate plus a differential, not to exceed 25
                                     percent of the First-Class rate, and that it be made available
                                     to the public for a two-year period.

                                     Based on the act, the Postal Service Board of Governors
                                     approved issuance of a nondenominational Breast Cancer
                                     Research Stamp on July 29, 1998, to be sold to the public
                                     at a cost of 40 cents each. The act required the differential
                                     revenue1 from the sale of the Breast Cancer Research
                                     Stamp, less the Postal Service’s costs for implementing the
                                     act, be paid to the Department of Defense Medical
                                     Research Program and the National Institutes of Health. To
                                     facilitate these payments, the Postal Service entered into
                                     memoranda of understanding with the Department of
                                     Defense and the National Institutes of Health, stipulating
                                     that payments would be made twice a year, in April and
                                     November, beginning November 1998 and ending
                                     November 2000.

                                     The Postal Service classifies stamps into three categories:
                                     definitive, commemorative, and special issue. Definitive
                                     stamps are defined as regular postage stamps that are
                                     issued in unlimited quantities and remain on sale for an
                                     indefinite period. Commemorative stamps are defined as
                                     postage stamps that depict the cultural and historical
                                     heritage of the United States, such as special subjects of
                                     national appeal or significance. This type of stamp is
                                     printed in limited quantities, typically large and colorful, and
                                     sold for a limited time. Special issue stamps are stamps
                                     that are issued for special purposes, such as the annual
                                     Christmas stamp. These are often available in greater
                                     quantities and over longer periods than commemorative
                                     stamps. Of the three types of stamps, definitive stamps
                                     cost significantly less to produce than commemorative or

1
    Differential revenue is the revenue generated in excess of the First-Class postage rate.



                                                            1
                                                 Restricted Information
Breast Cancer Research Stamp                                                      RG-AR-00-002
 Program Review


                               special issue stamps. The Postal Service categorized the
                               Breast Cancer Research Stamp as a commemorative
                               stamp.

Objective, Scope, and          The objective of our review was to determine if the Postal
Methodology                    Service implemented the semi-postal stamp program in
                               accordance with the Stamp Out Breast Cancer Act. In
                               pursuing this objective, we focused on whether: (1) internal
                               controls were sufficient to ensure that Breast Cancer
                               Research Stamp revenues, costs, and payments were
                               accounted for in accordance with the act and (2) Postal
                               Service management took actions on suggestions in our
                               prior management advisory report, Stamp Out Breast
                               Cancer Act and Stamp, RG-MA-98-007, issued
                               September 30, 1998.

                               To address our objectives, we interviewed Postal Service
                               officials and contractors. We reviewed documentation to
                               include revenues and expenses relating to the stamp in the
                               areas of Advertising, Stamp Services, Retail, Legal, Travel
                               Disbursements, Corporate Accounting, and various
                               contractors. We analyzed documentation concerning the
                               Postal Service’s requirement to recover costs incurred in
                               implementing the program. The cost data reviewed
                               encompassed the time period from the signing of the act
                               through fiscal year (FY) 1999.

                               This audit was conducted from July 1999 through
                               March 2000 in accordance with generally accepted
                               government auditing standards and included such tests of
                               internal controls, as we considered necessary under the
                               circumstances. We discussed our conclusions and
                               observations with appropriate management officials and
                               included their comments, where appropriate.




                                                   2
                                        Restricted Information
Breast Cancer Research Stamp                                                       RG-AR-00-002
 Program Review


                                      AUDIT RESULTS
Recognition,                   This was the first issuance of a semi-postal stamp by the
Awareness, and                 Postal Service. Generally, the Postal Service plans the
Funding                        design and issuance of new stamps two to three years in
                               advance. However, Postal Service management had less
                               than a year to implement the legally mandated Breast
                               Cancer Research Stamp Program. Postal Service officials
                               advised us that due to time constraints, they were unable to
                               budget for the program and encountered other logistical and
                               resource challenges.

                               Regardless, the Postal Service generally complied with the
                               Stamp Out Breast Cancer Act and promoted and raised
                               funds for breast cancer research. The Postal Service
                               successfully promoted national awareness for breast cancer
                               research by participating in and funding special events,
                               such as the Susan G. Komen Race for the Cure. They also
                               conducted a national advertising campaign using radio,
                               television, magazines, and other media including a billboard
                               advertisement in Times Square (pictured at left).

                               To promote social awareness of breast cancer, specific
                               initiatives were implemented by Postal Service management
                               and employees. A promotional campaign related to
                               Mother’s Day was held in partnership with the Run/Walk for
                               Women in New York City and Los Angeles. The Postal
                               Service hosted numerous events at local post offices in
                               recognition of National Breast Cancer Awareness Month in
                               October. Another example of these awareness efforts was
                               the partnering of postal employees in Des Moines, Iowa,
                               with a cancer center and radio station that kicked off the
                               “Deliver the Cure” campaign. As a result, the Postal Service
                               received national recognition for its efforts in raising funds
                               for this cause.

                               Approximately $47 million in Breast Cancer Research
                               Stamps were sold through the end of FY 1999. About
                               $38 million of this revenue covered the First-Class postage
                               rate of 33 cents per stamp. The balance, about $8.6 million,
                               was differential revenue above the First-Class postage rate
                               that was available for recovery of program costs and for
                               breast cancer research donations to the Department of
                               Defense and the National Institutes of Health.




                                                   3
                                        Restricted Information
Breast Cancer Research Stamp                                                       RG-AR-00-002
 Program Review



Recoverable Costs              Postal Service management recovered $205,000 in
                               incremental costs from differential revenue; however,
                               consistent with their interpretation of the act, the Postal
                               Service management still needed to recover approximately
                               an additional $841,000 in incremental costs incurred as of
                               September 1999. The Postal Service has until November
                               2000 to recover these costs.

                               The Stamp Out Breast Cancer Act states that the Postal
                               Service may recover from differential revenue, “reasonable
                               costs incurred by the Postal Service . . . including those
                               attributable to the printing, sale, and distribution of the
                               stamps” prior to payments being made to the Department of
                               Defense and the National Institutes of Health.

                               While the act provides discretion for the Postal Service to
                               prescribe regulations for cost recovery, the Committee on
                               Governmental Affairs explained its view of this provision of
                               the act, stating in the United States Senate Report 106-104,
                               July 8, 1999, that the Stamp Out Breast Cancer Act
                               “requires the Postal Service to recoup its costs associated
                               with the printing, sale and distribution of the ‘Stamp Out
                               Breast Cancer Stamp’ and the Committee fully expects the
                               Postal Service to adhere to this requirement.” Although this
                               report was prepared subsequent to the passage of the
                               Stamp Out Breast Cancer Act, and in connection with a
                               proposed bill for a new semi-postal stamp, it sets forth what
                               Congress believed should be the cost recovery provisions
                               related to the sale of the Breast Cancer Research Stamp.

                               In deciding what costs were required to be recovered,
                               Postal Service management initially debated about whether
                               incremental costs should be deducted from differential
                               revenue. Several senior management officials stated that
                               they preferred not to recover any costs because the
                               estimated incremental costs were small in relation to the
                               total revenue for the Postal Service. In support of this
                               viewpoint, another Postal Service senior official stated that
                               “recognizing the risk in the event of future semi-postal
                               stamps, there could be a lot of free-image advertising [for
                               the Postal Service] if we merely eat the costs based on the
                               importance of the cause it represents.” Alternatively, the
                               deputy postmaster general, at the time, disagreed with the
                               position that the Postal Service would not recover any costs



                                                   4
                                        Restricted Information
Breast Cancer Research Stamp                                                       RG-AR-00-002
 Program Review


                               against differential revenue. He stated that “this would
                               effectively amount to an ‘in-kind’ donation by the Postal
                               Service to charity.”

                               The Postal Service General Counsel reviewed the act and
                               provided guidance on implementing the cost recovery
                               aspects of the act. The General Counsel recommended
                               that the Postal Service Management Committee make
                               policy determinations as to what costs, if any, would be
                               considered recoverable. While making this determination,
                               the Management Committee considered two issues:
                               (1) should incremental costs be recovered and (2) if so,
                               what amount should be recovered. The chief financial
                               officer defined “incremental costs” as costs that are not
                               normally incurred in connection with regular commemorative
                               stamps. In this regard, the Postal Service Office of General
                               Counsel provided a statement that the chief financial
                               officer’s suggestion to recover incremental costs was “the
                               most sensible and politically defensible policy.”

                               During the April 1998 Board of Governors meeting, Postal
                               Service officials identified five types of incremental costs
                               associated with the Breast Cancer Research Stamp that
                               would be tracked. These costs included: training, retail
                               window automation programming, vending automation
                               programming, printing of flyers, and printing of revised
                               receipts.

                               Special training was needed to ensure that window clerks
                               learned the transaction process for the Breast Cancer
                               Research Stamp and were able to confidently answer
                               customer questions. Sale of the stamp required the entry of
                               a special code for tracking stamp sales, charging customers
                               the 40 cent semi-postal rate, and generating customer
                               receipts for income tax purposes. Guidance distributed in a
                               Postal Bulletin required that “all training and associated
                               costs for implementing the sale of the Breast Cancer Stamp
                               be captured and reported.” These costs were considered
                               costs not normally incurred for commemorative stamps.

                               The following chart identifies total program costs for the
                               Breast Cancer Research Stamp Program as of FY 1999. It
                               includes the total program costs recovered by the Postal
                               Service and additional incremental costs for the Breast




                                                   5
                                        Restricted Information
Breast Cancer Research Stamp                                                                          RG-AR-00-002
 Program Review


                               Cancer Research Stamp that should be recovered, based
                               on the Postal Service’s interpretation of the act.

                                       Cost Description       Total Program    Total Costs     OIG Recommended
                                                                  Costs       Recovered by         Additional
                                                                                 USPS          Recoverable Costs
                               Printing and Packaging           *$2,062,044
                               Shipping/Other Packaging             953,272
                               Advertising and Promotions**       1,701,473
                                Printing of Flyers                  228,150                               228,150
                               Training                             612,350                               612,350
                               Retail Window Automation             176,000        $176,000
                               Programming
                               Labor                                126,698
                               Market Research                       55,777
                               Stamp Design                          40,149
                               External Legal Counsel                21,603          21,603
                               Printing of Revised Receipts           7,131           7,000                  131
                               Prompt Payment Fees                    1,501
                               Total                             $5,986,148      ***$204,603             $840,631




                               *This amount does not include $359,000 for the additional 50 million
                                 stamps ordered in November 1999.

                               **Promotions include all costs related to special events.

                               ***This amount includes $21,603 in external legal fees recovered in
                                  November 1999.

                               As the preceding chart illustrates, approximately $1 million
                               of the about $6 million in program costs needed to be
                               recovered based on Postal Service management’s definition
                               of recoverable costs. Thus, the Postal Service would
                               absorb at least $4.9 million in expenses incurred through
                               FY 1999--about 83 percent of total program costs. Postal
                               Service management’s position is that this amount is
                               covered by the First-Class postage rate and is not an
                               incremental cost related to this stamp.

                               Almost $1.7 million that would be absorbed are advertising
                               costs. The Breast Cancer Research Semi-postal
                               Committee, created by the Postal Service to identify and
                               discuss issues related to the stamp, stated that those costs
                               should be recovered. Specifically, the committee stated that
                               “advertising costs will not be considered absorbable costs
                               under any circumstances.” At a later meeting, Postal



                                                        6
                                             Restricted Information
Breast Cancer Research Stamp                                                          RG-AR-00-002
 Program Review


                                   Service management decided not to recover any advertising
                                   costs.

                                   We also noted that printing and packaging costs varied
                                   widely depending on the types of stamps issued by the
                                   Postal Service. Stamp Acquisition officials stated that the
                                   historical average for printing and packaging costs for
                                   definitive stamps is $2.20 per 1000 and commemorative
                                   stamps range from $5.40 to $5.89 per 1000. The printing
                                   and packaging costs for the Breast Cancer Research
                                   Stamp, which the Postal Service categorized as a
                                   commemorative stamp, averaged $7.30 per 1000 stamps.

                                   Based on this data, we determined that the difference
                                   between the average printing and packaging costs for a
                                   commemorative stamp--$5.64 per 1000--and the average
                                   printing and packaging costs for the Breast Cancer
                                   Research Stamp--$7.30 per 1000--about $549,000 should
                                   be recovered as incremental costs.2 However, Stamp
                                   Acquisition officials subsequently explained that they had
                                   more current data on recently issued commemorative
                                   stamps. The revised data indicates that the average cost of
                                   these commemorative stamps is $7.62 per 1000. Thus,
                                   Postal Service officials did not believe that they should
                                   recover the additional $549,000.

                                   While we are not challenging the decision of the Postal
                                   Service officials, four of the six stamps used in arriving at
                                   the revised average were printed in volumes of 50 million or
                                   less and averaged $10.97 per 1000 stamps. Printing in
                                   lower volumes generally increases the price per unit. The
                                   two stamps printed in volume similar to that of the Breast
                                   Cancer Research stamp averaged $6.35 per 1000 stamps.

                                   As of November 1999 the Postal Service had recovered
                                   about $205,000 from differential revenue, comprised of
                                   $176,000 for the programming of retail window automation,
                                   $7000 in expenses for the printing of revised receipts, and
                                   approximately $22,000 for external legal counsel fees that
                                   were not previously defined as incremental costs.




2
    $7.30 - $5.64 = $1.66 x 331.7 million stamps/1000 = $549,000



                                                          7
                                               Restricted Information
Breast Cancer Research Stamp                                                        RG-AR-00-002
 Program Review


Recommendation                 We recommend that the chief financial officer and executive
                               vice president:

                               1.	 Recover costs consistent with the Postal Service’s
                                   interpretation of the act--about an additional $841,000
                                   for incremental program costs incurred through FY 1999,
                                   and any additional expenses that are incurred above that
                                   which would normally be incurred for a commemorative
                                   stamp, prior to making final payment to the Department
                                   of Defense and National Institutes of Health.

Summary of                     Management agreed in principle with recovering costs
Management’s                   consistent with their interpretation of the Stamp Out Breast
Comments                       Cancer Act, but asserted that $612,350 of the $841,000 in
                               identified incremental costs were incurred as part of a
                               routine training effort and they do not plan to recover these
                               costs. Management plans to recover $482,007, which
                               included some costs not included in the $841,000.

                               Postal Service management noted that they plan to conduct
                               a final evaluation of Program costs prior to making the last
                               payment for research to the Department of Defense and the
                               National Institutes of Health. They also plan to issue final
                               regulations on recoverable costs and publish them in their
                               Administrative Support Manual by the end of the stamp’s
                               sales period.

Evaluation of                  Management’s comments are partially responsive to our
Management’s                   recommendations. We maintain that training costs
Comments                       identified still need to be recovered. During this review,
                               Postal Service management explained that training of this
                               nature is not performed on the issuance of any new stamps.
                               The training was used to promote the unique features of the
                               Breast Cancer Research Stamp, to explain the account
                               identifier code used to record the sales of the stamp, and
                               the issuance of receipts to customers for tax purposes.
                               Management officials also stated the reason for tracking all
                               costs associated with training is because it was included in
                               their initial incremental cost categories. Therefore, since




                                                   8
                                        Restricted Information
Breast Cancer Research Stamp                                                      RG-AR-00-002
 Program Review



                               Postal Service management agreed in their response to
                               recover “costs deemed incremental to those normally
                               associated with commemorative stamps”, these training
                               costs should be recovered from the differential revenue.

                               We view the disagreement on this recommendation as
                               unresolved.




                                                   9
                                        Restricted Information
Breast Cancer Research Stamp                                                                       RG-AR-00-002
 Program Review



Cost Tracking	                   Postal Service management provided guidance listing the
                                 offices responsible for maintaining cost information and
                                 established a finance number for the Breast Cancer
                                 Research Program. However, neither complete guidance
                                 was provided on where costs should be reported, nor was
                                 the finance number provided to field offices. The act
                                 requires that the postmaster general report to Congress the
                                 reasonable costs incurred by the Postal Service in carrying
                                 out this act. Despite the absence of complete guidance, as
                                 of September 1999 the Postal Service had tracked $5.1
                                 million in costs. However, we identified about $836,000 in
                                 additional costs that should have been tracked, for a total of
                                 about $6 million in program costs.

                                 Postal Service guidance3 identified offices that had
                                 responsibility for maintaining or estimating cost information
                                 in connection with the Breast Cancer Research Stamp.
                                 Guidance4 also included instructions on how training and
                                 associated costs for implementing the sale of the Breast
                                 Cancer Research Stamp were to be captured and reported.
                                 However, the guidance did not provide the Breast Cancer
                                 Research Stamp finance number, nor was there any
                                 guidance provided that clearly identified where those costs
                                 should be reported.

                                 Officials in Corporate Accounting stated they intentionally
                                 did not provide the program finance number to headquarters
                                 and field offices for control purposes. Postal Service
                                 management’s reasoning was that this policy prevented
                                 unrelated costs from being charged to the finance number.
                                 As an alternative, they developed an internal spreadsheet to
                                 track all costs related to executing the Stamp Out Breast
                                 Cancer Act.

                                 We determined that some program costs were
                                 inconsistently tracked, and some costs were not tracked at
                                 all. For example, we identified approximately $650,000 in
                                 advertising expenses for the Breast Cancer Research
                                 Stamp Program by contacting the responsible contractors.
                                 Invoices for the $650,000 were not on file in Corporate


3
  Postal Bulletin 21973, Administrative Support Manual 645 (Revision), Cost Tracking, Estimation, Offsets, and 

Payments in Connection with the Breast Cancer Research Special Postage Stamp.

4
  Postal Bulletin 21976, Breast Cancer Research Semi-Postal Stamp – Tracking Local Training/Administrative Cost.




                                                       10
                                             Restricted Information
Breast Cancer Research Stamp                                                                        RG-AR-00-002
 Program Review



                               Accounting and these expenses had not been charged to
                               the program finance number.

                               In addition, the Postal Service did not routinely track labor
                               hours related to specific stamp programs, even though the
                               act required that “other resources” required in carrying out
                               the Breast Cancer Research Stamp Program be accounted
                               for and reported. Postal Service management provided an
                               estimate of almost 3300 labor hours directly attributable to
                               the Breast Cancer Research Program, which Corporate
                               Accounting staff had not included on the internal
                               spreadsheets. Based on labor hours provided by the Postal
                               Service, we calculated that labor hour costs were about
                               $127,000.

                               The following chart contains costs tracked for the program.
                               The third column identifies program expenses that were not
                               included on either the internal spreadsheet in Corporate
                               Accounting or under the Breast Cancer Research Stamp
                               Program finance number.


                                     Cost Description          Costs Tracked by   Additional     Total Program
                                                                Postal Service      Costs            Costs
                                                                                  Identified
                                Printing and Packaging               $2,062,044                       $2,062,044
                                Shipping/Other Packaging                937,917        $15,355         $953,272
                                Advertising and Promotions            1,044,563        656,910         1,701,473
                                Printing of Flyers                      228,150                         228,150
                                Training                                612,350                         612,350
                                Retail Window Automation                176,000                         176,000
                                Programming
                                Labor                                                  126,698          126,698
                                Market Research                          55,777                          55,777
                                Stamp Design                              3,000         37,149           40,149
                                External Legal Counsel                   21,603                          21,603
                                Printing of Revised Receipts              7,131                            7,131
                                Prompt Payment Fees                       1,501                            1,501
                                Total                                $5,150,036       $836,112        $5,986,148




Recommendation                 2.	 Issue guidance as to whom costs and supporting
                                   documentation are to be reported or provide the finance
                                   number to all offices incurring costs for the Breast
                                   Cancer Research Stamp Program.




                                                     11
                                           Restricted Information
Breast Cancer Research Stamp                                                        RG-AR-00-002
 Program Review


Summary of                     Management’s comments support the intent of our
Management’s                   recommendation to issue guidance that states as “to whom
Comments                       costs and supporting documentation are to be reported”, but
                               believe they have already provided this guidance. They
                               disagreed with the other recommended option of providing
                               the finance number to all offices incurring program costs.
                               Management responded that within the next 60 days they
                               would request that the field identify and provide
                               documentation on any events related to the Breast Cancer
                               Research Stamp that may not have been charged to the
                               program finance number.

                               In reference to “cost tracking”, Postal management stated
                               that total Program costs should not include the Times
                               Square billboard advertising costs for the Breast Cancer
                               Research Stamp and labor costs incurred in implementing
                               and monitoring the program. Management reasoned that
                               advertising for the stamp intermittently appeared on the
                               billboard and labor costs were absorbed by the existing staff
                               budget.


Evaluation of                  Management misunderstood our recommendation. The
Management’s                   recommendation provides the option of either providing
Comments                       specific guidance on where to report Breast Cancer stamp
                               related cost or providing the Breast Cancer Research
                               Stamp finance number to all offices. Management has
                               proposed action to request that field offices identify and
                               provide documentation on any Breast Cancer Stamp­
                               themed events that may not yet have been charged to the
                               Breast Cancer Stamp Program finance number within the
                               next 60 days.

                               This proposed action meets the intent of our
                               recommendation.

                               In reference to “cost tracking”, we maintain that the Times
                               Square billboard and labor costs directly attributable to the
                               Breast Cancer Research Stamp should be included in total
                               program costs. The Breast Cancer Research Stamp has
                               been advertised on the Times Square billboard since
                               October 1998. We understand that the billboard had been
                               rented prior to the issuance of the stamp and that two other
                               stamps appeared on other sections of the tri-faced billboard.
                               Therefore, we only attributed the costs specifically related to



                                                  12
                                        Restricted Information
Breast Cancer Research Stamp                                                      RG-AR-00-002
 Program Review


                               the exhibition of the Breast Cancer Research stamp.
                               Additionally, based on our interpretation of the Stamp Out
                               Breast Cancer Act, labor costs are included in the “other
                               resources” identified in the act.




                                                  13
                                        Restricted Information
Breast Cancer Research Stamp                                                                           RG-AR-00-002
 Program Review



Stamp Purchases                     The process used to determine the number of stamps
                                    required to support the Breast Cancer Research Stamp
                                    Program needed improvement. Specifically, the Postal
                                    Service spent more than $940,000 to print 131.7 million
                                    additional Breast Cancer Research Stamps that, based on
                                    historical sales data, may not have been needed.

                                    Stamp Services officials stated that 200 million stamps were
                                    printed at the beginning of this program. This initial order
                                    was based on the general criteria for commemorative
                                    stamps of printing 100 million stamps per year of issuance
                                    and the requirement of the act for the stamp to be available
                                    for a two-year period. However, as of November 30, 1999,
                                    Stamp Acquisition had ordered 331.7 million stamps.

                                    Based on a review of historical sales data for the stamp, we
                                    calculated that the 200 million stamps should have been
                                    sufficient for the two-year duration of the program. We
                                    calculated that when the Postal Service ordered 80 million
                                    additional stamps in December 19985, about 139 million
                                    stamps were available for sale and stamp sales per
                                    accounting period6 had declined from more than 12 million
                                    to about 6.5 million, with only 20.5 accounting periods
                                    remaining in the program.

                                    At the end of FY 1999, approximately 164.7 million stamps
                                    were available for sale. Based on the Postal Service’s sales
                                    data, OIG statisticians forecasted that 74.5 million stamps
                                    should have been sufficient to meet consumer demand with
                                    11.5 accounting periods remaining for the program. Despite
                                    having approximately 90 million more stamps than
                                    appeared necessary for the remainder of the program,
                                    Postal Service management purchased an additional 50
                                    million stamps in November 1999. Officials in Stamp
                                    Acquisition said they purchased the additional stamps
                                    because current accounting systems do not provide precise
                                    data on stamp stock remaining in individual post offices.
                                    Thus, the additional stamps were ordered to ensure stamp
                                    distribution offices had enough stamps to supply post offices
                                    nationwide. As a result, the Postal Service incurred about
                                    $940,000 to print stamps that may not be needed.

5
    Postal Service management agreed to purchase, at a discount, an overrun of 1.7 million stamps with this order.
6
    The Postal Service has 13 accounting periods per year, each equal to 4 weeks.



                                                          14
                                                Restricted Information
Breast Cancer Research Stamp                                                                                                                                        RG-AR-00-002
 Program Review



                               The following chart shows stamp sales per accounting
                               period through September 1999 and highlights that
                               additional stamps were ordered at a time when sales were
                               declining.

                                                                                   Stam ps So l d Per Account ing Per i od
                                                                  14.00

                                                                  12.00
                                                                                                                               O rder P laced for 80 M illion Stam ps



                                    Stamps per period, millions
                                                                  10.00

                                                                   8.00

                                                                   6.00

                                                                   4.00

                                                                   2.00

                                                                   0.00
                                                                          98-10 98-11 98-12 98-13 99-01 99-02 99-03 99-04 99-05 99-06 99-07 99-08 99-09 99-10 99-11 99-12 99-13

                                                                                                                Accounting P eriod




Recommendation	                We recommend that the senior vice president, Government
                               Relations and Public Policy:

                               3.	 Develop an improved system for reasonably estimating
                                   the number of semi-postal stamps required for future
                                   semi-postal stamp programs.

Summary of                     Management disagreed with the recommendation.
Management’s                   However, management responded by informing us that they
Comments                       “have only tracked sales for stamps as a whole and have
                               only tracked individual stamp inventory at the Stamp
                               Distribution Office.” They asserted that in the absence of an
                               inventory system for capturing inventory data, the current
                               system ensures that an adequate supply of Breast Cancer
                               Research Stamps is on hand in all sales locations.
                               Management stated that the Stamp Out Breast Cancer Act
                               mandated the Postal Service to make Breast Cancer
                               Research stamps readily available to the public at all stamp
                               distribution offices and post offices throughout the required
                               two-year sales period. Additionally, management stated
                               that the full implementation of system-wide programs
                               currently under development, such as Standard Accounting
                               for Retail and Point of Service, would improve inventory



                                                                               15
                                                                     Restricted Information
Breast Cancer Research Stamp                                                        RG-AR-00-002
 Program Review


                               control processes and ensure that appropriate stamp
                               inventories are maintained not only for future semi-postal
                               issues but for all stamp stock.

Evaluation of                  During this review, officials in Stamp Acquisition informed us
Management’s                   that the additional stamps were purchased because the
Comments                       current accounting systems do not provide precise data on
                               stamp inventory. Management reordered stamps based on
                               inventory reductions at the stamp distribution offices,
                               instead of on the total inventory remaining at the stamp
                               distribution offices, individual post offices, and other postal
                               facilities.

                               According to the Postal Service, about 50 million stamps
                               remained at the stamp distribution offices, which prompted
                               them to order an additional 80 million stamps. However,
                               based on historical sales data we reviewed, more than
                               139 million stamps remained in inventory, thus no additional
                               stamps were needed. Therefore, we continue to maintain
                               that the process used for determining the number of stamps
                               required for this program needed improvement and resulted
                               in the purchase of excess stamps. We view the lack of an
                               inventory system or process that shows total inventory on
                               hand as a material weakness and plan to perform a
                               separate review of stamp inventory controls and
                               procedures. We understand that the Point of Service
                               system is intended to address this issue once it is fully
                               implement; however, until then, we believe the Postal
                               Service should establish a process for considering sales
                               and inventory data in determining when additional stamps
                               are needed.

                               We view the disagreement on this recommendation as
                               unresolved.




                                                  16
                                        Restricted Information
Breast Cancer Research Stamp                                                       RG-AR-00-002
 Program Review



Follow-up on Prior             We previously issued a management advisory report,
OIG Review                     Stamp Out Breast Cancer Act and Stamp, to the Postal
                               Service on September 30, 1998. The objective of the
                               review was to ensure compliance with the Stamp Out Breast
                               Cancer Act. We suggested that the Postal Service:
                               (1) establish a detailed budget for the Stamp Program;
                               (2) issue guidance to track and report all attributable costs;
                               (3) identify and define reasonable incremental costs and
                               disseminate this information to their field offices; and
                               (4) expedite the finalization of the memoranda of
                               understanding with the Department of Defense and the
                               National Institutes of Health.

                               The first suggestion that Postal Service management
                               establish a detailed operational budget and target spending
                               levels for the Breast Cancer Research Stamp was partially
                               implemented. Postal Service officials stated that they did
                               not have enough lead-time to prepare budgets for FY 1998
                               and 1999 because these were already established at the
                               time the Stamp Out Breast Cancer Act was enacted. We
                               were provided a Marketing Plan for FY 2000; however,
                               there were no costs associated with the plan. Officials
                               stated that they elected not to prepare a detailed budget for
                               the program for FY 2000.

                               The second suggestion that Postal Service management
                               issue guidance to track and report all attributable costs
                               using an assigned finance number was partially
                               implemented. Postal Service management stated that they
                               elected not to provide the finance number to all the offices
                               for control purposes. During this review, numerous
                               interviews with Postal Service management, contractors,
                               and staff revealed that although some guidance was issued,
                               the guidance did not provide complete information on what
                               costs should be reported and where to report those costs.

                               The third suggestion that the Postal Service identify and
                               define what constitutes reasonable and incremental costs,
                               develop a policy, and disseminate the information to their
                               field offices, was partially implemented. Postal Service
                               management identified five types of costs for recovery, but
                               did not disseminate this information to the field offices.




                                                  17
                                        Restricted Information
Breast Cancer Research Stamp                                                    RG-AR-00-002
 Program Review


                               The fourth suggestion to expedite the finalization of the
                               memoranda of understanding with the Department of
                               Defense and National Institutes of Health was fully
                               implemented. The Postal Service completed the
                               memoranda of understanding in October 1998. The
                               completion of the memoranda of understanding established
                               a time frame for semiannual payments to the research
                               institutions. To date, the Postal Service has made each of
                               its scheduled payments.




                                                  18
                                        Restricted Information
Breast Cancer Research Stamp                             RG-AR-00-002
 Program Review


                       APPENDIX. MANAGEMENT’S COMMENTS




                                          19
                                Restricted Information
Breast Cancer Research Stamp                            RG-AR-00-002
 Program Review




                                         20
                               Restricted Information
Breast Cancer Research Stamp                            RG-AR-00-002
 Program Review




                                         21
                               Restricted Information
Breast Cancer Research Stamp                            RG-AR-00-002
 Program Review




                                         22
                               Restricted Information
Breast Cancer Research Stamp                            RG-AR-00-002
 Program Review




                                         23
                               Restricted Information
Breast Cancer Research Stamp                                    RG-AR-00-002
 Program Review



Major Contributors to          Karen King-Bickle
This Report                    Michael Carlson
                               Larry Chisley
                               Monique Colter
                               Nicole Koenig
                               Hermeta Martin-Reddon
                               N. Wayne McLaughlin
                               William O’Rourke
                               Duane Vasquez




                                                 24
                                       Restricted Information
